HHS/OIG-Audit--"Audit of Medicaid Claims for Services Identified as Mutually Exclusive Procedure Codes at the Michigan Department of Community Health - January 1, 1996 through September 30, 1998 , (A-05-00-00006)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Claims for Services Identified as Mutually Exclusive
Procedure Codes at The Michigan Department of Community Health - January 1,
1996 Through September 30, 1998," (A-05-00-00006)
June 15, 2000
Complete Text of Report is available in PDF format
(87 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final letter report presents the results of our Audit of Medicaid Claims
for Services Identified as Mutually Exclusive Procedure Codes. The objective
of our review was to determine the extent of potential overpayments or savings
that could accrue to the Federal government and the State of Michigan if edits
were implemented to identify and deny payments for procedure codes that the
Health Care Financing Administration (HCFA) had identified as mutually exclusive.
We determined that the State agency currently had edits in place that require
pre-defined combinations of procedure codes to be reviewed before payment is
made. Based on our review of payments for radiology and laboratory services
made during our audit period of January 1, 1996 through September 30, 1998,
we found that savings of approximately $240,000 could have been realized had
these edits been in place.